- misconduct in science by Drs. \

  f o r m e r l y of 1           1
                                       CLOSEOUT FOR M97020007

          This case came to OIG on February 7, 1997, when Dr.
  program officer), Deputy Director of NSF's Division of
   supplied us with a letter from Dr. -hte
  04in- 1
                                                          complainant) of
                                                                             --         (the


                                           The complainant expressed concern about possible

                                             -
                                                             of the a-bd
                                                        (the subjects). The complainant was
  concerned that one or both subjects submitted a review that dishonestly criticized research the
   subject(s), as evidenced by the fact that they later did the research themselves, genuinely
   believed to be meritorious (Concern #I). The complainant's letter suggested additional
   concerns about possible intellectual theft (Concern #2) and violation of the integrity of NSF's
   confidential merit review process (Concern #3).

        The complainant submitted a proposal' that NSF declined to fund. When submitting
 the proposal, the complainant named the subjects as potential reviewers. The complainant
 developed his concerns when he saw a publication2by the subjects in which they allegedly
 reported results that the complainant sought to achieve in the project the complainant proposed
 to NSF and NSP declined to fund.

        OIG examined the merit reviews of the complainant's proposal and related NSP records
 that documented the basis for NSF's decision to decline the complainant's proposal. We
 determined that neither subject had submitted a review that dishonest. criticized the proposal
 to prevent NSF from funding        We concluded 'that there was no substance to Concern #l.

         With regard to Concerns #2 and #3, OIG obtained evidence indicating that the subjects
 had a history of working in the general scientific area of the complainant's proposal, had
 initiated their project prior to the review of the complainant's proposal, and had not misused
 his proposal. OIG noted that scientists often choose substantially similar research topics
                                                                                                                        .




 The sentence says only that the file contained no ieviews by either subject that dishonestly criticized theproposal.


                                               Page 1 of 2                                      M97-07
                                CLOSEOUT FOR M97020007

independently and that the fact that two research groups did so does not, by itself, suggest that
one derived its research ideas from the other.

       In his letter to NSF, the complainant asked whether either of the subjects "reviewed
my grant proposal" or was "in any way responsible for rejecting it. " OIG informed the
complainant that as a matter of policy NSF does not disclose the identities of reviewers
(Proposal and Award Manual, Section 1230 and that we could neither affim nor deny that the
subjects had reviewed the complainant's proposal.

       This inquiry is closed and no further action will be taken on this case.



cc: Acting Deputy Assistarit Inspector General Oversight, Assistant Inspector General
Oversight, IG




                                       Page 2 of 2
